             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




  The Removal and Disposal of Capital
      Property – Atlanta Network
         Distribution Center

        Management Advisory Report




                                            December 5, 2013

Report Number NO-MA-14-002
                                                                      December 5, 2013

                                                         The Removal and Disposal of
                                                            Capital Property – Atlanta
                                                          Network Distribution Center

                                                         Report Number NO-MA-14-002



BACKGROUND:
In 2009, the U.S. Postal Service began        Atlanta NDC management and staff did
reorganizing its 21 bulk mail centers into    not receive training on capital property
network distribution centers (NDCs).          disposal policies. We determined that
NDCs are part of a national system            personnel involved in disposal of this
consisting of 21 facilities dedicated to      property did not document efforts to
processing and transporting bulk mail,        trade in the equipment to the vendor,
including Package Services, Standard          sell the equipment, use its parts for
Mail, and Periodicals. In 2010, the           other equipment, or recycle it prior to
Postal Service closed the Atlanta             disposal. Instead, we found the
Surface Transfer Center and moved its         equipment was listed as retired property
functions into the Atlanta, GA NDC.           in the Postal Service’s accounting
Surface transfer centers are mail             records with retirement classifications
consolidation and redistribution facilities   noted as “loss or theft,” “destroyed,” or
used primarily to increase vehicle            “not found.” Ultimately, we could not
capacity and utilization.                     determine what became of this
                                              equipment. We made referrals to our
Due to the move, 35 mail loaders              Office of Investigations.
formerly used by the Atlanta NDC were
removed to free up floor space for            We estimated the Postal Service lost at
surface transfer center operations. Mail      least $26,700 in scrap value for this
loaders load and unload containers the        equipment. We also determined this
Postal Service uses to transport mail         equipment could have been
within its facilities and throughout the      replacement parts at the Atlanta NDC or
country.                                      other NDCs, potentially avoiding
                                              additional costs.
Our objective was to determine whether
the disposal of mail loaders at the           WHAT THE OIG RECOMMENDED:
Atlanta NDC was performed under               We recommended the vice president,
established procedures.                       Capital Metro Area, ensure Atlanta NDC
                                              officials provide training on capital
WHAT THE OIG FOUND:                           equipment disposal policies.
Management did not properly dispose of
20 of the 35 mail loaders at the Atlanta      Link to review the entire report
NDC. This occurred because some
December 5, 2013

MEMORANDUM FOR:            KRISTIN A. SEAVER
                           VICE PRESIDENT, CAPITAL METRO AREA


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations


SUBJECT:                   Management Advisory Report – The Removal and Disposal
                           of Capital Property – Atlanta Network Distribution Center
                           (Report Number NO-MA-14-002)

This report presents the results of our review of the Removal and Disposal of Capital
Property at the Atlanta Network Distribution Center (Project Number 13XG038NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, deputy director,
Networking Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
The Removal and Disposal of Capital Property –
 Atlanta Network Distribution Center                                                                              NO-MA-14-002



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Improper Disposal of Equipment ..................................................................................... 2

Recommendation ............................................................................................................ 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 5

Appendix B: Mail Loader Equipment Disposal Details..................................................... 6

Appendix C: Management's Comments .......................................................................... 7
The Removal and Disposal of Capital Property –                                                           NO-MA-14-002
 Atlanta Network Distribution Center


Introduction

This report presents the results of our self-initiated review of the U.S. Postal Service’s
removal and disposal of mail loader capital property equipment at the Atlanta Network
Distribution Center (NDC) (Project Number 13XG038NO000). Our objective was to
determine whether the disposal of mail loaders at the Atlanta NDC was performed
under established procedures. 1 See Appendix A for additional information about this
review.

In May 2009, the Postal Service began reorganizing its 21 bulk mail centers (BMCs) 2
into NDCs 3 to improve package processing efficiency and reduce costs. Management
began realignment of the Atlanta BMC to an NDC in September 2009 and completed it
in 2010. In further efforts to reduce costs, the Postal Service moved the Atlanta Surface
Transfer Center (STC) 4 into the Atlanta NDC. 5 According to management, this
realignment necessitated removal of 35 mail loaders 6 (see Figure 1) to open up dock
space and make room for a high-speed tray sorter (HSTS). 7

                 Figure 1. Seven of the Removed Atlanta NDC Mail Loaders




          This picture shows seven mail loaders on the Newell recycling company’s flat bed trailer prior to
          removal from the Atlanta NDC yard. Both types of equipment appear to be whole (or complete)
          with few to no parts cannibalized (spare parts for future repairs). These mail loaders were
          among the 15 disposals properly documented.




1
  We modified our objective slightly from the original announcement letter to be more concise.
2
  This dedicated network was developed to reduce delays and damage when handling bulk mail within a system
                                                                                                                      ®
designed primarily for letter mail. The term ”bulk mail” includes Package Services, Periodicals, and Standard Mail
classes with service standards from 1 to 10 days.
3
  NDCs are part of a national system of automated mail processing facilities linked by a dedicated transportation
network.
4
  STCs are mail consolidation and redistribution facilities that are primarily used to increase vehicle cubic capacity
and utilization.
5
  By consolidating the Atlanta STC into the Atlanta NDC, the Postal Service closed a contracted facility.
6
  Mail loaders load and unload containers the Postal Service uses to transport mail within its facilities and throughout
the country. The Postal Service considers mail loaders capital equipment. Capital equipment records show the
median year of purchase for these 35 removed mail loaders was 1996, with a median purchase value exceeding
$42,200 (per loader).
7
  Atlanta NDC personnel also referred to these mail loaders as Automatic Container Loaders and Postal Pak
Loaders.
                                                              1
The Removal and Disposal of Capital Property –                                                     NO-MA-14-002
 Atlanta Network Distribution Center



Conclusion

Management did not properly dispose of 20 of 35 mail loaders at the Atlanta NDC in
2010 because some Atlanta NDC managers and staff members were not properly
trained.

Improper Disposal of Equipment

Handbook AS-701 8 outlines the removal and disposal requirements for capital property.
The handbook requires completion of a Postal Service (PS) Form 969 prior to disposal
and creation of a destruction committee to oversee the process. Employees did not
follow these requirements when disposing of 20 of 35 mail loaders at the Atlanta NDC in
2010. This occurred because some Atlanta NDC managers and staff members did not
have proper training on capital property disposal policies.

When disposing of equipment, the policy outlines a preferred order or hierarchy of
disposal as follows:

1.   Trade in to vendor.

2.   Sale by Postal Service installation.

3.   Cannibalization for parts.

4.   Sale for recycling.

5.   Transfers to federal agencies (including military).

6.   Donation to a federal or state agency, an academic institution, a non-profit
     organization, or a public body.

7.    Destruction and landfill disposal.

8.   Adjustments: loss, theft, and accidental damage or destruction.

Because employees did not adequately document or follow the disposal process, the
Postal Service could not ensure the process was in its best interests. The first four
disposal options would have brought the best value to the Postal Service. We
determined if the Atlanta NDC recycled the 20 mail loaders, it could have obtained at
least $26,700 in scrap value for those items (an average value of $1,335 per mail


8
  Handbook AS-701, Fleet Management, Section 64, outlines procedures for disposing of capital equipment. It states
that a PS Form 969, Material Recycling and Disposal, is to be completed before disposing of capital equipment and
sets priorities for methods of disposal being considered.

                                                        2
The Removal and Disposal of Capital Property –                                                       NO-MA-14-002
 Atlanta Network Distribution Center


loader). Instead, the equipment was written off as a loss, theft, or destruction. See
Appendix B for additional information on these assets.

Ultimately, we could not determine what became of this equipment. We made referrals
to our Office of Investigation. The Atlanta NDC and other NDCs could have used parts
from the excess mail loaders. We documented that, subsequent to the mail loader
equipment removal, the Atlanta NDC purchased replacement parts for existing mail
loaders that potentially could have come from the excess equipment. 9

Recommendation

We recommend the vice president, Capital Metro Area:

1.    Ensure Atlanta Network Distribution Center officials provide training on capital
      equipment disposal policies.

Management’s Comments

Management agreed with our recommendation to provide training to the appropriate
personnel on material management specific to capital property removal and disposal.
The training will include service talks and discussions. Management committed to
complete this training by December 31, 2013. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation in the report.

The OIG considers the recommendation to be significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




9
  We obtained a list of mail loader replacement parts the Atlanta NDC purchased between 2010 and 2013 and
identified parts totaling $26,469, excluding parts under $100. We could not validate that the equipment removed had
the same parts as those purchased; however, had the removed mail loaders been cannibalized for parts, the Postal
Service may have avoided the added cost of parts.

                                                         3
The Removal and Disposal of Capital Property –                                                           NO-MA-14-002
 Atlanta Network Distribution Center



                                  Appendix A: Additional Information

Background

After several years of declining mail volume, a changed mail mix, and mailers entering
more mail near final destinations, much of the mail that former BMCs processed has
also declined significantly. Facing significant cost-reduction targets and recognizing the
opportunity to improve mail dispatching and processing operations, the Postal Service
developed an internal re-engineering effort to transform BMCs into NDCs. The Postal
Service’s NDCs are part of a national system consisting of 21 automated mail
processing facilities linked by a dedicated transportation network. The system
incorporates processing facilities and a transportation network dedicated to sorting and
transporting bulk mail, Package Services, Standard Mail, and Periodicals.

Management began realigning the Atlanta BMC to a NDC in September 2009 and
completed it in 2010. In further efforts to reduce costs, the Postal Service moved the
Atlanta STC10 into the Atlanta NDC. 11 According to management, inclusion of the
Atlanta STC necessitated removal of 35 mail loaders to open up dock space and make
room for a HSTS. 12

Mail loaders are used to load and unload mail from the containers the Postal Service
uses to transport mail within its facilities and throughout the country. The Postal Service
considers mail loaders capital equipment. Capital equipment records for the Atlanta
NDC show the median year of purchase for the 35 removed mail loaders was 1996, with
a median purchase value exceeding $42,200 (per loader).

Objective, Scope, and Methodology

Our objective was to determine whether the disposal of mail loader capital equipment at
the Atlanta NDC was performed in accordance with established procedures.

To accomplish our objective, we interviewed Postal Service managers and employees
and reviewed all available documentation related to the disposal of 15 of the 35 mail
loaders. No documentation existed for the remaining 20 loaders identified in this report.
We identified and reviewed the policies and guidelines pertinent to the disposal and
removal of capital property. We observed and photographed operations at the Atlanta
NDC.

We conducted this review from May through November 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for


10
   STCs are mail consolidation and redistribution facilities with the primary function of achieving increased vehicle
cubic capacity and utilization.
11
   By consolidating the Atlanta STC into the Atlanta NDC, the Postal Service closed a contracted facility.
12
   Atlanta NDC personnel also referred to these mail loaders as Automatic Container Loaders, Integrated Mail
Handling Systems, or Postal Pak Loaders.
                                                             4
The Removal and Disposal of Capital Property –                               NO-MA-14-002
 Atlanta Network Distribution Center


Inspection and Evaluation. We discussed our observations and conclusions with
management on August 29, 2013, and included their comments where appropriate.

We relied on Postal Service computer-processed data, including the Electronic Data
Warehouse (EDW) and the Property Equipment Accounting System. We determined
that the data were sufficiently reliable for the purposes of this report based on our
comparisons to hard copy documentation and discussions with Atlanta NDC staff.


Prior Audit Coverage

The OIG issued a report, Efficiency Review of the Atlanta Network Distribution Center –
Processing and Transportation (Report Number NO-AR-13-005, dated August 16,
2013), which determined that Atlanta NDC operations and associated transportation to
and from the Memphis NDC could be more efficient. The Atlanta NDC did not attain the
average productivity of those NDCs above median productivity. The Atlanta NDC used
more workhours than necessary. We also found some mail was being unnecessarily
transported from the Atlanta NDC and that space in mail transport equipment, such as
over-the-road containers, was underutilized. Overall transportation between the Atlanta
and Memphis NDCs and transportation from some feeder processing plants to the
Memphis NDC was underutilized. Management agreed with part of our processing
efficiency findings, all of our transportation findings, and all of our recommendations.




                                                 5
  The Removal and Disposal of Capital Property –                                                              NO-MA-14-002
   Atlanta Network Distribution Center


                        Appendix B: Mail Loader Equipment Disposal Details
  We determined that employees at the Atlanta NDC disposed of 20 mail loaders without
  following proper procedures. This equipment (see Table 1) had its removal from service
  annotated on the Postal Service’s Property Changes Accounting report in the EDW with
  the retirement classifications noted as either “Loss or Theft” (11 items) or “Destroyed”
  (seven items). Two were noted as “Not Found” during the semiannual certification 13
  process.
         Table 1. OIG Estimated Scrap Value of the 20 Mail Loaders Not Recycled
             Capital                                                                                        Estimated
         Identification/          Acquisition                                        Retirement             Purchase
Count    Asset Number                 Date                Retirement Date               Type                  Price
 1          0067912             September 1980           July 2010                  Destroyed                  $ 1,335
 2          1047631             November 1997            July 2010                  Destroyed                     1,335
 3          1047630             November 1997            July 2010                  Destroyed                     1,335
 4          1047628             November 1997            July 2010                  Destroyed                     1,335
 5          1047627             November 1997            July 2010                  Destroyed                     1,335
 6          1047629             November 1997            July 2010                  Destroyed                     1,335
 7          1047632             November 1997            July 2010                  Destroyed                     1,335
 8          1123102             March 1998               September 2011             Loss or Theft                 1,335
 9          1123103             March 1998               September 2011             Loss or Theft                 1,335
10          1123101             March 1998               August 2012                Not Found                     1,335
11          0897020             November 1996            August 2012                Not Found                     1,335
12          0881448             July 1996                January 2013               Loss or Theft                 1,335
13          0897022             November 1996            January 2013               Loss or Theft                 1,335
14          0897024             November 1996            January 2013               Loss or Theft                 1,335
15          0897025             November 1996            January 2013               Loss or Theft                 1,335
16          0897032             November 1996            January 2013               Loss or Theft                 1,335
17          0897037             November 1996            January 2013               Loss or Theft                 1,335
18          0897026             November 1996            January 2013               Loss or Theft                 1,335
19          1003433             November 1996            January 2013               Loss or Theft                 1,335
20          1000374             December 1996            January 2013               Loss or Theft                 1,335
Total                                                                                                         $26,700 14




  13
     Semiannual Certification is a report with a sampling of a facility’s capital property assets. The facility then validates
  having these capital assets (found or not found). This equipment was considered not found.
  14
     We made this estimate based on the recycling revenue received for the 15 mail loaders that were recycled by the
  Atlanta NDC. For the 15 mail loaders that were recycled in 2010, the Atlanta NDC received $20,030. This amounted
  to an average value of $1,335 per mail loader. We applied this value to each of the 20 mail loaders removed without
  the proper documentation and obtained a scrap value of $26,700 in total for the 20 items.
                                                              6
The Removal and Disposal of Capital Property –                 NO-MA-14-002
 Atlanta Network Distribution Center


                           Appendix C: Management's Comments




                                                 7
